BAKER DONELSON

100 LIGHT STREET » BALTIMORE, MARYLAND 21202 * 410.685.1120 » bakerdonelson.com

JONATHAN BIRAN, SHAREHOLDER:
Direct Dial: 410.862.1073
E-Mail Address: jbiran@bakerdonelson.com

July 10, 2019

Scott S. Harris, Clerk

Supreme Court of the United States
One First Street NE

Washington, DC 20543

Re: — Unity HealthCare v. Azar, No. 20-

Dear Mr. Harris:

Pursuant to Rule 12.6, I write to notify the Court of petitioner Unity HealthCare's belief
that the following respondents have no interest in the outcome of Unity HealthCare's pending
petition for certiorari:

St. Anthony Regional Hospital
Lakes Regional Healthcare

Both of the above respondents filed their own separate complaints against the Secretary
of Health and Human Services ("Secretary") in the Northern District of Iowa, and appealed
adverse judgments in those cases to the United States Court of Appeals for the Eighth Circuit.
The Eighth Circuit subsequently consolidated the appeals filed by St. Anthony Regional Hospital
and Lakes Regional Healthcare with the appeal filed by Unity HealthCare that was then pending
in the Eighth Circuit, for purposes of oral argument and issuance of a decision.

Neither St. Anthony Regional Hospital nor Lakes Regional Healthcare has filed a petition
for certiorari with respect to the Eighth Circuit's judgment in favor of the Secretary in the
consolidated appeals, nor has either of those respondents filed an application for an extension of
time to file a petition for certiorari. Based on these circumstances and on representations made
by counsel for these respondents to counsel for Unity HealthCare following the disposition of the
consolidated appeals, Unity HealthCare provides this Rule 12.6 notice.

  
  

 

 

ALABAMA * FLORIDA * GEORGIA * LOUISIANA * MARYLAND * MISSISSIPPI © SOUTH TENNESSEE ° TEXAS * VIRGINIA * WASHINGTON, D.C.
Scott S. Harris, Clerk
July 10, 2019
Page 2

Very truly yours,

BAKER, DONELSON, BEARMAN,
CALDWELL & BERKOWITZ, PC

Ba

onathan Biran, Shareholder

ce: Angela E. Dralle, Esq.
Dorsey & Whitney LLP
801 Grand Ave., Ste. 4100
Des Moines, IA 50309-8002
(Via Federal Express Next Day Delivery and via email at Dralle.Angela@Dorsey.com)
Attorney of Record for Respondents (St. Anthony Regional Hospital and Lakes Regional
Healthcare
